John Elwood
+1 202.942.5992 Direct
John.Elwood@arnoldporter.com

November 11, 2020
VIA OVERNIGHT DELIVERY AND ELECTRONIC FILING
Hon. Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, DC 20543
Re:

Bristol-Myers Squibb Co. et al. v. State of New Mexico ex rel. Hector
Balderas (No. 20-293)

Dear Mr. Harris:
Pursuant to this Court’s order dated March 19, 2020, petitioners in the
above-captioned case respectfully request that the Court delay distribution of the
petition for writ of certiorari and related briefs in this matter until December 9,
2020, and set the case for consideration at the Conference on January 8, 2020. This
case is currently scheduled for distribution on November 24, 2020 for consideration
at the Court’s December 11, 2020 conference.
Petitioners and their counsel are widely dispersed, exacerbating the
logistical difficulties caused by the COVID-19 pandemic, which have had a
significant impact on petitioners’ operations and have complicated petitioners’
ability to confer with counsel in connection with the preparation of a reply in
support of their petition. The requested two-week delay will permit petitioners
and their counsel to prepare a submission that will materially assist the Court in its
consideration of this case.
Counsel for respondent has indicated that respondent consents to
petitioners’ request.

Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave, NW | Washington, DC 20001-3743 | www.arnoldporter.com

Hon. Scott S. Harris, Clerk
November 11, 2020
Page 2
Sincerely,
s/ John P. Elwood
John Elwood

cc:

All counsel of record

